           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    Indirect Costs Claimed by the
             West Virginia
   Disability Determination Services


  December 2003      A-07-03-23072




     AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   December 4, 2003                                                                        Refer To:

To:     Larry G. Massanari
        Regional Commissioner
         Philadelphia

From:   Assistant Inspector General
         for Audit

Subject: Indirect Costs Claimed by the West Virginia Disability Determination Services
            (A-07-03-23072)


        OBJECTIVE
        The objective of our review was to determine if indirect costs claimed by the West
        Virginia Disability Determination Services (WV-DDS) during Federal Fiscal Years (FY)
        2000 through 2002 were allowable.

        BACKGROUND
        Disability determinations under the Social Security Administration’s (SSA) Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are performed by
        Disability Determination Services (DDS) in each State or other responsible jurisdictions
        according to Federal regulations.1 In carrying out its obligation, each DDS is
        responsible for determining claimants’ disabilities and ensuring that adequate evidence
        is available to support its determinations. SSA reimburses State DDSs for 100 percent
        of allowable expenditures incurred in making disability determinations under the DI and
        SSI programs. The expenditures include both direct and indirect costs.2




        1
            42 U.S.C §421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
        2
          Direct costs can be identified specifically with a particular cost objective (OMB Circular A-87, Attachment
        A, § E.1). Examples of DDS direct costs include expenditures for personnel, medical, and travel. Indirect
        costs arise from activities that benefit multiple State and Federal agencies but are not readily assignable
        to any one agency (OMB Circular A-87, Attachment A, § F.1). Examples of DDS indirect costs include
        the cost of services such as accounting, auditing, budgeting, and payroll.
Page 2 – Larry G. Massanari


WV-DDS computes indirect costs by applying a federally approved rate to a cost base.3
This methodology was approved by the United States Department of Education which is
the Federal agency designated the responsibility of approving indirect costs for the
West Virginia Division of Rehabilitation Services (WV-DRS). During FYs 2000 through
2002, WV-DDS claimed about $4.5 million for indirect costs.

Single Audit Findings

The SSA requested this audit because of the indirect cost audit findings reported in the
West Virginia single audits. WV-DDS is subject to periodic annual audits (single audits),
under the Single Audit Act Amendments of 19964, conducted by an independent
auditor.5 The single audits reported that the independent auditor could not determine
whether indirect costs claimed by the WV-DDS in State Fiscal Years (SFY) 2000
through 2002 were allowable because the state’s accounting system did not use an
accounting code to identify indirect cost items. As a result, the independent auditor
could not determine if indirect costs were also charged as direct costs. In addition, the
single audits reported that the wrong rate was used to calculate indirect costs. We
reviewed the indirect cost findings reported in the SFY 2000 through 2002 single audits.
Appendix B presents our comments on the single audit findings.

SCOPE AND METHODOLOGY
To complete our objective, we:

      •   Reviewed Office of Management and Budget Circular (OMB) A-87, Cost
          Principles for State, Local and Indian Tribal Governments, SSA’s Program
          Operations Manual System (POMS) DI 39500 DDS Fiscal and Administrative
          Management, and other instructions pertaining to administrative costs incurred
          by WV-DDS.

      •   Reviewed the indirect cost findings reported in the SFYs 2000 through 2002
          single audits for the State of West Virginia (see Appendix B).

      •   Interviewed staff at WV-DDS, WV-DRS, and SSA Region III Center for Disability.

      •   Reviewed State policies and procedures related to personnel and nonpersonnel
          costs.

3
  The United States Department of Education approved WV-DRS to use a cost base that included the
total of personnel and nonpersonnel costs, less medical and capitalized equipment costs. The capitalized
equipment costs are classified as nonpersonnel costs.
4
    Public Law No. 104-156.
5
 The single audit for FY 2000 was conducted by Deloitte and Touche. The single audit for FYs 2001 and
2002 were conducted by Ernst and Young.
Page 3 – Larry G. Massanari


   •   Reviewed WV-DDS’s computation of indirect costs for FYs 2000 through
       FY 2002. Since the methodology for computing indirect costs and the indirect
       cost base remained relatively constant during SFYs 2000 through 2002, we
       limited our detailed audit testing to the direct costs included in the FY 2002
       indirect cost base.

   •   Obtained electronic data for personnel and nonpersonnel costs claimed by the
       WV-DDS on the Report of Obligations for SSA Disability Programs
       (Form SSA-4513) during FY 2002.

   •   Conducted detailed audit testing to determine if the direct costs reported in the
       FY 2002 indirect cost base benefited the WV-DDS and were in accordance with
       OMB Circular A-87 and POMS. We expanded our original audit period to include
       the indirect costs claimed by the WV-DDS during the first three quarters of
       FY 2003. Our audit period was expanded because the condition that resulted in
       the unallowable costs we identified during our review of FY 2002 direct costs also
       impacted FY 2003 costs. The condition that resulted in unallowable FY 2002 and
       2003 costs did not impact the costs claimed by the WV-DDS during FYs 2000
       and 2001.

We concluded that the electronic data used in our audit was sufficiently reliable to
achieve our audit objective. We assessed the reliability of the electronic data by
reconciling it with the costs claimed on the Form SSA-4513. We also conducted
detailed audit testing on select data elements in the electronic data files.

We performed work at WV-DRS and WV-DDS in Charleston, West Virginia. We
conducted fieldwork from March 2003 through July 2003. The audit was conducted in
accordance with generally accepted government auditing standards.

RESULTS OF REVIEW

We determined that the WV-DDS claimed unallowable indirect costs of $19,404 for
FYs 2001 through 2003. The unallowable indirect costs occurred because the indirect
cost base used to calculate (i) FY 2001 indirect costs was not adjusted to account for a
reduction in nonpersonnel costs claimed, (ii) FY 2002 indirect costs included
unallowable personnel and nonpersonnel costs of $50,389, and (iii) FY 2003 indirect
costs included unallowable personnel costs of $32,022. In total, the WV-DDS
overstated its direct and indirect obligations reported to SSA by $101,815 for FYs 2001
through 2003.

UNALLOWABLE INDIRECT AND DIRECT COSTS

The indirect cost base used to calculate the WV-DDS’s FY 2001 indirect costs was
overstated by $45,177 because it was not adjusted to account for a reduction in
nonpersonnel costs claimed. This resulted in the WV-DDS claiming unallowable
indirect costs of $6,596. Furthermore, the base used to calculate the WV-DDS’s FY
Page 4 – Larry G. Massanari


2002 indirect costs included unallowable personnel costs of $42,093 and unallowable
nonpersonnel costs of $8,296 (total unallowable costs of $50,389). The inclusion of the
unallowable personnel and nonpersonnel costs in the base used to calculate indirect
costs resulted in the FY 2002 indirect costs being overstated by $8,132. In addition, the
WV-DDS claimed unallowable FY 2003 indirect costs of $4,676 because the base used
to calculate indirect costs included unallowable personnel costs of $32,022. The
calculations of the unallowable FY 2001, 2002, and 2003 indirect costs are shown in the
following table.

              INDIRECT COSTS CALCULATIONS              FY 2001        FY 2002      FY 2003
         Indirect Costs Base Per WV-DRS               $ 9,922,213   $10,784,009   $8,247,559
         Less:
           Unallowable Personnel Costs Per Audit               0         42,093       32,022
           Unallowable Nonpersonnel Costs Per Audit            0          8,296            0
           Reduction In Nonpersonnel Costs Claimed        45,177              0            0
         Adjusted Indirect Cost Base Per Audit         9,877,036     10,733,620    8,215,537
         Indirect Cost Rate                               14.6%          14.6%        14.6%
         Allowable Indirect Costs                      1,442,047      1,567,109    1,199,468
         Less: Indirect Costs Claimed                  1,448,643      1,575,241    1,204,144
         Unallowable Indirect Costs                       $6,596         $8,132       $4,676

Indirect Costs Claimed Were Based on an Incorrect Indirect Cost Base

The indirect cost base used to calculate the WV-DDS’s FY 2001 indirect costs was
overstated because the WV-DDS reduced the nonpersonnel costs originally claimed on
the FY 2001 SSA-4513 by $45,177. These nonpersonnel costs were included in the
indirect cost base originally used to calculate indirect costs. However, after reducing
the nonpersonnel costs claimed, the WV-DDS did not recalculate the indirect costs
charged to SSA using the new indirect cost base. This resulted in the WV-DDS
claiming unallowable indirect costs of $6,596.

The Indirect Cost Base Included Unallowable Personnel Costs

In FYs 2002 and 2003, the WV-DDS claimed unallowable personnel costs of
$42,093 and $32,022, respectively. The unallowable costs related to the salary of a
WV-DRS employee (computer programmer). The employee worked on both DDS and
DRS activities during portions of our audit period; however, the employee’s total salary
was charged to the DDS and included in the base used to calculate indirect costs
charged to SSA. Furthermore, the time the employee spent on the DDS versus DRS
programs was not documented. According to OMB Circular A-87, salary and wages
must be supported by (1) personnel activity reports for employees working on multiple
programs or (2) semi-annual certifications for employees that worked solely on one
program.6

WV-DRS officials stated that the computer programmer worked solely on the WV-DDS
program prior to October 2001 and provided support and maintenance for the DDS’s

6
    OMB Circular A-87, Attachment B, § 11.h.
Page 5 – Larry G. Massanari


Hewlett Packard (HP) computer system. As such, the employee’s salary was charged
to the WV-DDS.7 However, in October 2001 the WV-DDS converted to the I-Levy
computer system. As the WV-DDS transitioned from the HP to the I-Levy computer
system, the programmer’s responsibilities shifted from working solely on DDS related
activities to working solely on WV-DRS activities. After December 2002, the computer
programmer spent no time on DDS activities.

Neither the WV-DRS nor the WV-DDS maintained personnel activity reports to support
the percentage of time the programmer spent on each program, as required by
OMB Circular A-878. Therefore, we could not determine the portion of the employee’s
salary attributable to each program for the period of October 1, 2001 through
June 30, 2003. As a result, we considered all costs claimed by the WV-DDS during the
period of October 1, 2001 through June 30, 2003 for the WV-DRS employee as
unallowable personnel costs. WV-DRS officials stated that the programmer transferred
to the Charleston DDS July 1, 2003.

Unallowable Nonpersonnel Costs Were Included in the Indirect Cost Base

During FY 2002, the WV-DDS claimed unallowable nonpersonnel costs of $8,296.9
This occurred because of an error on the spreadsheet used to accumulate costs that
are subsequently reported to SSA on the Form SSA-4513. As such, the costs
associated with 37 travel vouchers were recorded twice on the SSA-4513.10 WV-DRS
stated that it corrected the spreadsheet formula that resulted in this error.

CONCLUSIONS AND RECOMMENDATIONS
During FYs 2001, 2002, and 2003, the WV-DDS overstated its obligations by $101,815.
The overstated obligations occurred because the DDS claimed unallowable personnel
and nonpersonnel costs and included in the base used to calculate indirect costs, which
resulted in indirect costs being overstated.

We recommend that SSA instruct the WV-DDS to:

1. Refund $19,404 for indirect costs inappropriately charged to SSA from
   October 1, 2000 through June 30, 2003.


7
  The WV-DDS did not maintain documentation required by OMB Circular A-87, Attachment B, § 11.h to
support that the employee worked solely on the DDS program during FYs 2000 and 2001. However, we
did not question the employee’s salary for these FYs since other documentation was available to support
that the employee worked on the DDS program.
8
    OMB Circular A-87, Attachment B, § 11.h.
9
    WV-DRS identified the duplicate travel costs when it generated the electronic data for our audit.
10
  We reviewed the FY 2002 electronic data files and concluded that the vouchers were only processed
and paid once through the state’s accounting system.
Page 6 – Larry G. Massanari


2. Refund $74,115 for the unallowable personnel costs charged to SSA from
   October 1, 2001 through June 30, 2003.

3. Refund $8,296 for the unallowable nonpersonnel costs charged to SSA during
   FY 2002.

4. Maintain semi-annual time certifications for employees working solely on the DDS
   program and personnel activity reports for employees working on multiple programs.

AGENCY COMMENTS
In commenting on our draft report, SSA and WV-DRS agreed with our
recommendations. See Appendix C for the full texts of SSA and WV-DRS comments.



                                              S
                                              Steven L. Schaeffer
                                        Appendices
Appendix A – Sample Methodology

Appendix B – Single Audit Indirect Cost Findings

Appendix C – Agency Comments

Appendix D – OIG Contacts and Staff Acknowledgements
                                                                      Appendix A
SAMPLE METHODOLOGY
Personnel Costs

The West Virginia Disability Determination Services (WV-DDS) has about
170 employees. To ensure that 10 percent of this cost category was subject to review,
we selected 3 pay periods in fiscal year (FY) 2002 and ensured all DDS personnel
within the selected pay periods were directly assigned to the DDS.

WV-DDS utilizes about 15 contract physicians to assist in evaluating medical evidence
used to make disability determinations. To ensure that 10 percent of this cost category
was subject to review, we selected the 3 largest vouchers that included individual
payments to multiple contract physicians. We reviewed all individual contract payments
to ensure the physicians were paid based upon the DDS contract. We also verified the
payments agreed with the physicians’ claims for reimbursement.

The electronic file of personnel transactions provided by WV-Division of Rehabilitation
Services (WV-DRS) included seven vouchers for a total of $72,130 that were not
identified as DDS salaries and wages or contract physician costs. We reviewed all
vouchers in this category to ensure they were appropriate direct personnel costs and
were adequately supported.

Nonpersonnel Costs

To maximize the amount of cost subject to review, we conducted a review of the
35 largest vouchers for nonpersonnel costs. Because applicant travel and electronic
data processing maintenance was not represented, we also selected the two largest
applicant travel vouchers and the largest electronic data processing maintenance
vouchers for review. We reviewed the vouchers to ensure costs were (1) DDS related
expenditures, (2) allowable, and (3) reported in the correct FY.
                                                                                   Appendix B
SINGLE AUDIT INDIRECT COSTS FINDINGS
We reviewed the indirect cost findings reported in the single audits. The results of our
review are presented in the following table.


 State
              Single Audit Indirect Cost                    Office of the Inspector General
 Fiscal
                      Findings                                         Response
 Years
 2000,    1. The independent auditor could not         Our review determined that the West Virginia
 2001,       determine whether indirect costs          Division of Rehabilitation Services’ (WV-DRS)
  and        charged to the Social Security            failure to use an accounting code in the state’s
 2002        Administration (SSA) Program were         accounting system to identify indirect cost items
             allowable because a code for              did not result in unallowable indirect cost being
             identifying indirect cost items was not   charged to SSA.
             utilized in the state’s accounting
             system. As a result, the independent
             auditor could not determine if indirect
             costs were also charged as direct
             costs.
  2001    2. The WV-DRS used the wrong indirect We determined that the correct approved indirect
   and       cost rate to charge indirect costs to the rate for Fiscal Year (FY) 2000 through 2002 was
  2002       SSA Program.                              being used.

                                                       In May 2000, the United States Department of
                                                       Education and WV-DRS renegotiated a lower
                                                       indirect cost rate to be used beginning
                                                       July 1, 2000. However, WV-DRS continued to
                                                       use the prior negotiated rate. After the single
                                                       audit reported this condition, WV-DRS adjusted
                                                       the amount of FY 2000 and 2001 indirect costs
                                                       claimed to reflect the renegotiated rate.
                  Appendix C

Agency Comments
                                    SOCIAL SECURITY
MEMORANDUM

Date:      November 24, 2003                                                             Refer To:

To:        Steven L. Schaeffer
           Assistant Inspector General for Audit

From:      Larry G. Massanari
           Regional Commissioner
           Philadelphia

Subject:   Indirect Costs Claimed by the West Virginia Disability Determination Services
           (A-07-03-23072)


           This is our response to the draft audit report, “Indirect Costs Claimed by the West
           Virginia Disability Determination Services” filed under (A-07-03-23072). The objective
           of the review was to determine if indirect costs claimed by the West Virginia Disability
           Determination Services (WV-DDS) during Federal Fiscal Years (FY) 2000 through 2002
           were allowable.

           The audit concludes that during FYs 2001 through 2003, the WV-DDS overstated its
           obligations by $101,815. The overstated obligations occurred because the DDS claimed
           unallowable personnel and nonpersonnel costs and included them in the base formula
           used to calculate indirect costs, resulting in indirect costs being overstated.
           Recommendations were cited as follows:

              1. Refund $19,404 for indirect costs inappropriately charged to SSA from
                 October 1, 2000 through June 30, 2003.

              2. Refund $74,115 for the unallowable personnel costs charged to SSA from
                 October 1, 2001 through June 30, 2003.

              3. Refund $8,296 for the unallowable nonpersonnel costs charged to SSA during
                 FY 2002.

              4. Maintain semi-annual time certifications for employees working solely on the
                 DDS program and personnel activity reports for employees working on multiple
                 programs.




                                                     C-1
To provide you with a more detailed explanation for resolving these findings, attached is
the Division of Rehabilitation Services (DRS) draft audit report. In its response, the
Division requests that the DDS grant award for FY 2004 be reduced by $101,815. We
have informed the Division that this is unacceptable, and have advised them of the proper
funding reimbursement procedure to follow. The Division will refund $101,815 to the
Federal Government.

Thank you for the opportunity to respond to this matter.

Should you have any questions, please contact Betty Martin in the Center for Disability
Programs at 215-597-2047.

                                                           /s/

                                                 Larry G. Massanari

cc:
Theresa McMullen
Lenore Carlson
Jeff Hild
Candace Skurnik, Regional Audit




                                           C-2
                                    November 12, 2003


Steven L. Schaeffer
Assistant Inspector General for Audit
Social Security Administration
Baltimore, Maryland 21235-0001

Dear Mr. Schaeffer:

       This letter is to provide responses to your audit, A-07-03-23072.

Recommendation: Refund $19,404 for indirect costs inappropriately charged to SSA
from October 1, 2000, thorough June 30, 2003.

Response: The Division will refund the $19,404 of indirect costs inappropriately
charged.

Recommendation: Refund $74,115 for the unallowable personnel costs charged to SSA
from October 1, 2001, through June 30, 2003

Response: The Division will refund the $74,115 charged for unallowable personnel
costs.

Recommendation: Refund $8,296 for the unallowable nonpersonnel costs charged to
SSA during FY 2002.

Response: The Division will refund the $8,296 for unallowable personnel costs.

Recommendation: Maintain semi-annual time certifications for employees working
solely on the DDS program and personnel activity reports for employees working on
multiple programs.

Response: The Division will maintain semi-annual certifications for employees. The
first certification will occur in December 2003. Each year after, certifications will occur
in July and December.




                                            C-3
Mr. Steven L. Schaeffer
Page 2
November 12, 2003


       I am requesting that our DDS grant award for fiscal year 2004 be reduced by $101,815,
the amount of funds that is to be refunded. This would be the quickest and easiest way for us to
refund the money.

       Thank you for the opportunity to respond to your recommendations. If you wish to
discuss our responses, please contact Daniel Greene, Senior Manager, Fiscal Services at 304-
766-4662.

                                                  Sincerely,



                                                  Janice A Holland
                                                  Interim Director

Cc: Daniel Greene
   Jane Johnstone




                                              C-4
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
      Mark Bailey, Director, (816) 936-5591

      Shannon Agee, Deputy Director, (816) 936-5590

Acknowledgments
In addition to those named above:

      Kenneth Bennett, Information Technology Specialist

      Douglas Kelly, Auditor

      Cheryl Robinson, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-03-23072.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
